WAIVER

SUPREME COURT OF THE UNITED STATES

No. | 21-5433

ALEX WHITE STATE OF CALIFORNIA
(Petitioner) Vv. (Respondent)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© Tam filing this waiver on behalf of all respondents.

oO I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO lam not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature: Michael Katz Date 2021 0820 12:18:24 070

Date: 8/20/21

(Type or print) Name [Yichael Katz

© mr. O Ms. O Mrs. O Miss
Firm California Department of Justice, Office of the Attorney General
Address 300 South Spring Street
City & State [Los Angeles Zip 90013
Phone (213) 269-6072 Email |Michael.Katz@doj.ca.gov

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

John Colucci
ce: Attorney for Petitioner Alex White
jacol@adelphia.net
